20765I006

List of all Fees for TIB The Independent BankersBank, N.A. Payroll Card Program
All fees

Amount Details

Get started
Card purchase

$0

Monthly usage
Monthly fee

$0

Add money
Direct deposit

$0

Spend money
$0.45

This is our fee. There is no per purchase fee when you use a personalized, networkbranded card.

$1.25

The fee for your first withdrawal per pay period is $0. This is our fee. TIB The
Independent BankersBank, N.A. does not maintain an ATM network. Therefore, all ATMs
are “out-of-network”. You may also be charged a fee by the ATM operator, even if you do
not complete a transaction.

Customer service (automated)

$0.50

Per call. This fee is charged if you call the number on the back of your card and use the
automated customer service.

Customer service (live agent)

$2.50

Per call. This fee is charged if you call the number on the back of your card and use live
agent customer service.

Customer service (live agent)

$0

Per call. This fee is charged if you call TIB The Independent BankersBank, N.A. directly
at 1-800-924-9222.

ATM balance inquiry
(out-of-network)

$1.00

This is our fee. TIB The Independent BankersBank, N.A. does not maintain an ATM
network. Therefore, all ATMs are “out-of-network”. You may also be charged a fee by the
ATM operator, even if you do not complete a transaction.

International transaction

3%

Of the U.S. dollar amount of each transaction.

International ATM withdrawal

$4.00

This is our fee. You may also be charged a fee by the ATM operator, even if
you do not complete a transaction.

International ATM balance inquiry

$1.00

This is our fee. You may also be charged a fee by the ATM operator.

Per purchase
Get cash
ATM withdrawal
(out-of-network)

Information

Using your card outside the U.S.

Other
$0

Inactivity

Register your card for FDIC insurance eligibility and other protections. Your funds will be held at or transferred to TIB The Independent
BankersBank, N.A., an FDIC-insured institution. Once there, your funds are insured up to $250,000 by the FDIC in the event TIB The
Independent BankersBank, N.A. fails, if specific deposit insurance requirements are met and your card is registered. See
fdic.gov/deposit/deposits/prepaid.html for details.
.
Contact TIB The Independent BankersBank, N.A.by calling 1-800-924-9222 between the hours of 8am-7pm CST, by mail at Card Services,
TIB The Independent BankersBank, N.A., PO Box 560528, Dallas, TX 75356-0528, or visit us online at
https://www2.consumercardaccess.com/main/tib/Home.
For general information about prepaid accounts, visit cfpb.gov/prepaid.
If you have a complaint about a prepaid account, call the Consumer Financial Protection Bureau at 1-855-411-2372 or visit cfpb.gov/complaint.

TIB THE INDEPENDENT BANKERSBANK, N.A.
PAYROLL CARD TERMS AND CONDITIONS

30316I004

writing for assistance in settlement. You cannot stop payment to merchants for transactions
made through the use of your Card.

Transaction inside the United States

These Payroll Card Terms and Conditions (these “Terms and Conditions”) govern the terms and
conditions under which you may use a payroll card (the “Card”). Please read this Document
carefully and keep it for your records. By signing or using the Card, or authorizing another
person to use the Card, you are agreeing to these Terms and Conditions. The card is issued to
you by TIB THE INDEPENDENT BANKERSBANK, N.A., a Texas banking association. In these
Terms and Conditions, the words “Bank”, “we,” “our,” and “us,” all refer to that bank, and the words
“you” and “your” refer to the person to whom the Card is issued and any other person that you
authorize to use the Card.

ATM withdrawals after first transaction
(First withdrawal per pay period is waived)

$1.25

Balance inquiry

$1.00

POS transactions (Non-Visa branded cards only)

$0.45

Obtaining a Card
In order to obtain a Card, you must agree with your employer to receive all or a portion of your
wages, salary or other compensation from the employer by means of funds loaded onto the Card.
Your employer is responsible for instructing the Bank to load the amount of funds designated by the
employer onto the Card each pay period or as otherwise agreed. Once the funds are loaded onto
the Card, the funds belong to you, and you may use the Card for the type of transactions described
in these Terms and Conditions.

ATM withdrawals

Availability of Funds
The funds on the Card are available for your withdrawal as provided in these Terms and Conditions
by the later of (i) our opening of business on your payday or (ii) the close of business on the day on
which we receive the funds from your employer. If your payday or the day on which we receive the
funds from your employer, as applicable, is not a business day for us, the funds will be available
to you by the opening of business on the next business day on which we are open. For purposes
of these Terms and Conditions, a business day is considered every official working day of the
week. These are the days between and including Monday through Friday and do not include bank
holidays and weekends.

Automated telephone inquiry

$0.50

Talk to Customer Service Representative

$2.50

Role of Your Employer
The employer is not the issuer of the Card, and is not responsible for your Card or for your use of
the Card. Your employer will transfer funds to the Bank to load onto your Card according to the
schedule agreed to by your employer and the Bank. The Bank has no obligation to you in the event
your employer delays in providing or fails to provide funds to load onto your Card. Your employer
may retain the right to deduct funds from the amount stored on the Card in order to correct a
previous error or overpayment to you or for other reasons. You hereby authorize the Bank to
accept instructions from your employer to add or deduct funds from your Card, and in the case of a
deduction, to return those funds to your employer. If you have a dispute with your employer about
the amount of your wages, salary or other compensation, or the amount that the employer loads
onto or deducts from the Card, you will resolve that dispute directly with your employer and not
involve the Bank in such dispute.
About Your Card
The Card is a pre-paid, stored-value card. The Card is not a credit card or charge card. We have
not established any separate deposit account for you associated with the Card. We do not pay
any interest on funds stored on the Card. The Card has no minimum balance requirements. The
amount of funds shown on our records as being stored on the Card will determine the balance on
the Card, unless you can show us differently to our satisfaction. The prepaid value will decrease as
you use the Card, or you incur, or we assess, a fee or charge. You may use your Card to access
funds only to the extent that you have an available balance.
Before Using Your Card
You must sign your Card on the back signature panel. Your Card requires activation which can be
done by calling Customer Service at 1-877-878-0449. We encourage you to register your Card
on-line at https://www.onlinepaycard.com/tib. You may also change your PIN, receive Card activity
and Card information, and view monthly statements via the Payroll Card website.
Your Personal Identification Number (PIN)
A PIN will be issued to you on or around the time the Card is issued. A PIN will be required for
a transaction with the Card at an ATM. Your PIN is a security feature that identifies you as the
proper user of the Card and authorizing any transaction that you make with the Card. It is solely
your responsibility to not reveal your PIN to unauthorized users of the Card and you assume full
responsibility for any and all transactions made through your Card with the use of your PIN. If you
voluntarily give your Card and/or PIN to another person, you have authorized such person to use
your Card and access your funds, and you will be responsible for their use of your Card. Do not
write down your PIN. If the security of the Card or PIN is compromised, immediately notify
our Automated Customer Service toll-free at 1-877-878-0449.
Card Usage
If funds are available on your Card, you may perform the following types of transactions in
accordance with these Terms and Conditions.
VISA Branded Payroll Cards
If your Card displays the VISA logo, you may use your Card at any merchant displaying the
VISA logo as a Signature or POS (point-of-sale) transaction to purchase goods and services
or at any ATM displaying the STAR®, NYCE®, PLUS and PULSE® logos by using your PIN.
ATM Payroll Cards
You may use your Card at any merchant displaying the STAR®, NYCE®, PLUS and PULSE®
logos as a POS (point-of-sale) transaction to purchase goods and services or at any ATM
displaying the STAR®, NYCE®, PLUS and PULSE® logos by using your PIN.
Card-To-Card Money Transfer
You may instruct your employer to issue more than one Card in your name or in the name of
another person. Each person you authorize to use a secondary Card is authorized to access
funds loaded onto your Card, subject to these Terms and Conditions, in the same way as if you
yourself had accessed those funds.

Transactions outside the United States

Balance inquiry
International Transaction Fee

$4.00
$1.00
Three percent (3.0%)

Other Fees

The Bank may change these fees in the future upon appropriate prior notice to you.
Non-Usage and Restrictions
• For any unlawful purpose. We reserve the right to deny transactions or authorizations for any
unlawful purpose, such as use of the Card to facilitate or participate in internet gambling.
• To make regular preauthorized payments to third parties.
• For any car rental establishment, hotel, cruise lines or airlines.
Foreign Transactions
If you make a transaction in a currency other than U.S. Dollars, VISA will convert the transaction into
a U.S. Dollar amount. The currency conversion exchange rate used by VISA will either be (1) a rate
selected by VISA from a range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate VISA receives, or (2) the governmentmandated rate in effect for the applicable central processing date. The exchange rate in effect on the
applicable processing date may differ from the exchange rate in effect on the date you used your Card.
In each instance, we will add a 3% International Transaction Fee to the U.S. Dollar amount of any
transaction that is made in a foreign currency. If you use your Card to purchase goods or services (or
to obtain cash from an ATM or participating financial institution) outside the United States even if you
pay in U.S. Dollars, we will charge and deduct the amount on your Card a 3% International Transaction
Fee on top of the amount of the transaction. Any International Transaction Fee will be shown in your
Account History. The same conversion process and fee may apply if any International Transaction is
reversed or credited back to your account.
Documentation of Card Transactions
You are entitled to receive the following documentation with respect to Card transactions:
• At the time you make a Card transaction at an ATM or a merchant POS terminal, you are
entitled to receive a transaction record or receipt.
• Statements will be available to you for a 12-month rolling average in electronic format for
viewing online at https://www.onlinepaycard.com/tib.
• You may obtain your available balance on the Card (i) at any ATM displaying the STAR®,
NYCE®, or PULSE® logos, (ii) by calling toll-free 1-877-878-0449, or (iii) via the internet at
https://www.onlinepaycard.com/tib.
• To receive information regarding the activity on your Card or to request a 60-day written
history of card transactions, you may contact us at 1-800-924-9222 or by writing to us at Card
Services, TIB The Independent BankersBank, N.A., PO Box 560528, Dallas TX 75356-0528.
Confidentiality of Information on the Card
We will disclose information to third parties about the Card or the transactions you make with it:
• If it is necessary for completing a transaction
• In order to comply with government agency or court orders
• If you give us written permission
Our privacy policy tells how we treat and protect your personal information that we obtain under these
Terms and Conditions and by providing Card services to you. By your acceptance and use of the
Card, you consent that we may make our privacy policy available to you in an electronic format via the
internet at https://www.onlinepaycard.com/tib.
Your Liability for Card Use
If you believe the Card or your PIN has been lost or stolen, you must notify us IMMEDIATELY at
1-877-878-0449, and report it to your employer.
Tell us AT ONCE if you believe your Card or PIN has been lost or stolen, or if you believe that a
transaction has been made without your permission using information using your Card or PIN.
Telephoning is the best way of keeping your possible losses down. You could lose all the money in
your account. If you tell us within two (2) business days after you learn of the loss or theft of your Card
of PIN, you can lose no more than $50 if someone used your Card or PIN without permission.
If you do not tell us within two (2) business days after you learn of the loss or theft of your Card or
PIN, and we can prove we could have stopped someone from using your Card or PIN without your
permission if you had told us, you could lose as much as $500.
If you do not notify us within 60 days after the statement was made available electronically to you, you
may not get back any money you lost after the 60 days if we can prove that we could have stopped
someone from taking the money if you had told us in time. If a good reason (such as a long trip or a
hospital stay) kept you from telling us, we will extend the time periods.

Daily ATM withdrawal and transaction limits do apply
− $3,000 overall limit per day at any ATM or POS terminal. This is a combined amount
whether withdrawal or at a merchant terminal that accepts the Card.
− The Payroll Card may not be used for more than five (5) transactions per day, either at
ATMs, POS terminals at merchants, or both ATMs and POS terminals at merchants.

If your Card displays the VISA logo, and notwithstanding the foregoing provisions concerning your
liability for Card use, you will not be liable for any unauthorized transactions using your lost or stolen
VISA Card unless you have been grossly negligent or have engaged in fraud. This limitation on liability
does not apply to ATM transactions outside of the United States, to ATM transactions not sent over
VISA or PLUS networks, or to transactions that require your PIN and that are not processed by VISA.

Fees
The following fees and charges are imposed by the Bank on your use of the Card. You may be
charged a fee by an ATM owner other than the Bank over and above the fee disclosed in
these Terms and Conditions.

Disputes with Merchants
If you use your Card at a merchant, and a dispute with such merchant arises, you agree to make a
good faith effort to settle the dispute with the merchant. Any unresolved dispute may be sent to us in

187379_30316I004 TIB Payroll Card.indd 1

Error Resolution
In case of errors or questions about your Card, please contact us at 1-800-924-9222, between the
hours of 8am-7pm CST, or write to us at Card Services, TIB The Independent BankersBank, N.A.,
PO Box 560528, Dallas, TX 75356-0528, as soon as possible. If you think an error has occurred
on your Card, we must allow you to report an error until 60 days after the earlier of the date you
electronically access your Card, if the error could be viewed in your electronic history, or the date
we sent the FIRST written history on which the error appeared.
In the event of an error you will need to tell us:
• Your name and Card number.
• Why you believe an error occurred and the dollar amount involved.
• Approximately when the error occurred.
If you initially tell us this information orally, we may require that you send your complaint or question
in writing within 10 business days. If we ask you to put your complaint or question in writing, and we
do not receive it within 10 business days, we may not credit your Card.
We will determine whether an error occurred within 10 business days after we hear from you and
will promptly correct any error. If we need more time, however, we may take up to 45 days to
investigate your complaint or question. If we decide to do this, we will credit your Card within 10
business days for the amount you think is in error, so that you will have the money during the time
it takes us to complete our investigation.
For errors involving new accounts, POS (point-of-sale) or foreign-initiated transactions, we may
take up to 90 days to investigate your complaint or question. For new accounts, we may take up to
20 business days to credit your account for the amount you think is in error.
At the conclusion of our investigation, we will notify you of the results within three business days
after completing our investigation. If we decide that there was no error, we will send you a written
explanation. You may ask for copies of the documents that we used in our investigation.
Overdrafts
You must have sufficient funds on the Card at the time of a transaction in order to pay for the
transaction. If a merchant or an ATM operator attempts to submit a transaction on the Card for an
amount that is greater than the current balance on your Card, the transaction may not be approved
by the Bank. If the Bank, in its sole discretion, settles or pays a transaction with your Card when
there are insufficient funds stored on the Card to pay for the transaction, this will result in an
overdraft on your Card. We have no obligation to allow an overdraft. You agree to pay the Bank the
amount of such overdraft. We may deduct any overdraft amount from your Card.
Bank Liability
If the Bank does not complete a transfer to or from your Card on time or in the correct amount
according to these Terms and Conditions, we may be liable for your losses or damages. However,
there are some exceptions. The Bank will not be liable, for instance:
(1) If, through no fault of ours, you do not have enough money stored on your Card to make the
transaction.
(2) If the ATM where you are making the transaction does not have enough cash.
(3) If the terminal or system was not working properly and you knew about the problem when
you started the transaction.
(4) If we are prohibited by law from completing the transaction.
(5) If circumstances beyond our control (such as fire or flood) prevent the Card transaction,
despite reasonable precautions that we have taken.
Disclaimer of Liability
In providing the Card and related services to you, the Bank disclaims any duty or responsibility
other than those expressly set forth in these Terms and Conditions.
Bank Right of Set-Off
You agree that the Bank is authorized at any time to set-off the funds stored on your Card or the
related stored value account against your debts or liabilities owed to the Bank. The Bank may
exercise this right of set-off without notice to you.
Dormant Card Accounts
You acknowledge and agree that the Bank may be required by applicable law to turn over to a state
government authority any funds remaining on your Card after a period of inactivity or dormancy.
Amendment
We may amend these Terms and Conditions by delivering notice of the amendment to you in the
manner agreed to by you and the Bank or to your last address as shown on the records of the
Bank. You will be given at least 21 days’ notice prior to the effective date of any amendment which
results in an increased fee or charge, an increase in your liability, a reduction in services offered by
the Bank, or stricter limitations on transaction or withdrawal rights.
Termination/Assignment
The Card is our property and we reserve the right to cancel, repossess, or revoke its use at any
time without prior notice and demand return of our Card to your employer, subject to applicable
law. You may terminate these Terms and Conditions at any time by returning your Card to your
employer. Upon termination, the Bank will arrange to transfer any remaining funds stored on the
Card to you or your employer for your benefit. Termination, whether by you or by the Bank, shall
not affect prior transactions or obligations relating to your Card existing at the time of termination.
You may not transfer or assign your rights and obligations under these Terms and Conditions to
any other person without the Bank’s prior written consent. However, the Bank may assign our
obligations to you under these Terms and Conditions without your consent or notice to you. Once
the Card is signed, it cannot be transferred to anyone else. Resale of Payroll cards is strictly
prohibited.
Severability/No Waiver
If any provision of these Terms and Conditions is deemed unlawful, void, or for any reason
unenforceable, that provision shall be deemed severable from these Terms and Conditions and
shall not affect the validity and enforceability of any remaining provisions. The Bank’s failure to
enforce strict performance of any provision of these Terms and Conditions will not waive the Bank’s
right to subsequently enforce such provision or any other provisions of these Terms and Conditions.
Governing Law
These Terms and Conditions, the Payroll Card and all transactions hereunder are subject to the
laws of the State of Texas and the laws of the United States.
TIB – PayrollCardTermsandConditions_Rev. 201705

8/15/17 2:43 PM

